October 1, 2020
CLD-005
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2072
UNITED STATES OF AMERICA
VS.
KIRK A. SIMMONS, Appellant
(D. Del. Crim. No. l-13-cr-00097-001)

Present:

RESTREPO, MATEY and SCIRICA, Circuit Judges
Submitted is Appellant’s request for a certificate of appealability under 28
U.S.C. § 2253(c)(1) in the above-captioned case.
Respectfully,

Clerk
________________________________ ORDER_________________________________
Appellant’s request for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c); Buck v. Davis. 137 S. Ct. 759, 777 (2017); Morris v. Horn. 187 F.3d 333,
339-41 (3d Cir. 1999). To the extent that Appellant’s motion under Federal Rule of Civil
Procedure 60(b) sought to raise new claims or to attack the District Court’s denial of
claims in his 28 U.S.C. § 2255 motion on the merits, jurists of reason would agree,
without debate, that the Rule 60(b) motion constituted an unauthorized second or
successive § 2255 motion that the District Court lacked jurisdiction to consider. See 28
U.S.C. §§ 2253(c)(2), 2244(b)(3)(A); Gonzalez v. Crosby. 545 U.S. 524, 530-32 (2005);
see also Slack v. McDaniel. 529 U.S. 473, 484 (2000). To the extent that Appellant’s
motion raised “true” Rule 60(b) claims, see Gonzalez. 545 U.S. at 531, by challenging
the District Court’s denial of his requests for evidence and dismissal of claims in his
§ 2255 motion as procedurally barred, jurists of reason would agree, without debate, that

APPENDIX A

Appellant was not entitled to relief under Rule 60(b) because he failed to show that there
were “extraordinary circumstances where, without [Rule 60(b)] relief, an extreme and
unexpected hardship would occur.” Cox v. Horn, 757 F.3d 113, 120 (3d Cir. 2014)
(citation omitted); see also Gonzalez. 545 U.S. at 535.

By the Court,
s/ L. Felipe Restrepo
Circuit Judge
Dated: October 13, 2020
Lmr/cc: Graham L. Robinson
Kirk A. Simmons
eh

f'l
*

✓ ••
• **
A True Copy:^° ftps'll!'0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case l:13-cr-00097-LPS Document 117 Filed 05/07/20 Page 1 of 6 Page ID #: 823

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
KIRK A. SIMMONS,
Movant/Defendant,
v.

Civ. Act No. 15-549-LPS
Cr. Act. No. 13-97-LPS

UNITED STATES OF AMERICA,
Respondent/Plaintiff.

MEMORANDUM
I.

INTRODUCTION
Movant Kirk A. Simmons (“Movant”) has filed a Motion for a Bill of Particulars (D.I. 104)

and a Rule 60(b) Motion to Reopen/Reconsider his § 2255 Proceeding (D.I. 107) (“Rule 60(b)
Motion”). For the reasons discussed, the Court -will deny both Motions.
II.

BACKGROUND
On February 3, 2017, the Court denied in its entirety Movant’s § 2255 Motion challenging

his 2014 convictions for attempted coercion and enticement of a minor (18 U.S.C. § 2422(b)). (D.I.
28; D.I. 58) Movant appealed that decision and, on April 28, 2017, the Third Circuit Court of
Appeals terminated Movant’s appeal after denying'his request for a certificate of appealability. (D.I.
100)
On June 25, 2018, Movant filed in this Court a Motion for a Bill of Particulars, asking the
Court to order the Government to provide a Bill of Particulars that “itemizes and lists those
evidences [sic] transferred to defense counsel during discovery in the above captioned criminal
case. ” (D.I. 104) Movant asserts he needs this evidence to demonstrate that the Government did

APPENDIX B

Case l:13-cr-00097-LPS Document 117 Filed 05/07/20 Page 2 of 6 PagelD #: 824

not provide him with Exhibit 41 during discovery in his criminal proceedings. He also contends that
the Government’s failure to provide Exhibit 4 supports an argument he wishes to raise in a Rule
60(b) motion, namely, that his rights were violated under Brady v. Maryland, 373 U.S. 83 (1963). (D.I.
104) The Government responds that the Court should deny the Motion for a Bill of Particular for
two reasons. (D.I. 105) First, the Government notes that the request was not filed within a
reasonable time, since it was filed almost four years after Movant was sentenced and more than a full
year after his § 2255 Motion was denied. (D.I. 105 at 2) Second, the Government asserts that
Movant incorrectly alleges that he never received the requested information, which the Government
insists it provided Movant “during the normal course of discovery on October 11, 2013.” (D.I. 105
at 2-3)
On August 29, 2018, Movant filed in the Court of Appeals for the Third Circuit an
Application for Leave to File a Second or Successive § 2255 Motion (“Application for
Second/Successive Motion Authorization”), on the ground that new evidence (including Exhibit 4)
came to light during his § 2255 proceeding. See In re Simmons, No. 18-2904, Application (3rd Cir.
Aug. 29, 2018). Movant contended that this new evidence supports the claims he raised in his
original § 2255 Motion, and also that the new evidence demonstrates his decision to plead guilty was
not fully informed, due to the Government’s Brady violation. Id. at 60. The Third Circuit denied the
Application for Second/Successive Motion Authorization on September 13, 2018. See In re Simmons,
No. 18-2904, Order (3rd Cir. Sept. 13, 2018).

Exhibit 4 “contains incriminating conversations between [Movant] and an undercover detective in
which [Movant] discusses his clear intent to violate 18 U.S.C. § 2422(b).” (D.I. 105 at 1) The
Government provided Exhibit 4 to the Court and Movant during Movant’s § 2255 proceeding.
2

Case l:13-cr-00097-LPS Document 117 Filed 05/07/20 Page 3 of 6 PagelD #: 825

On October 26, 2018, Movant filed in this Court a Motion for Reconsideration pursuant to
Federal Rule of Civil Procedure 60(b)(2), (3) and (6), asking the Court to reconsider its denial of his
§ 2255 Motion because the Government did not provide him with Exhibit 4 in his criminal
proceeding during the pre-plea period. (D.1.107 at 9-10) According to Movant, the Government
has falsely stated that it provided Exhibit 4 to Movant during discovery. He also contends that the
Government intentionally presented a falsified version of the facts during the pre-plea period in
order to “substantially interfere” with Movant’s ability to “fully and fairly articulate an entrapment
defense and proceed to trial.” (D.I. 107 at 10)
IV.

LEGAL STANDARDS
A motion filed pursuant to Federal Rule of Civil Procedure 60(b) “allows a party to seek

relief from a final judgment, and request reopening of his case, under a limited set of circumstances
including fraud, mistake, and newly discovered evidence.” Gon%ale% v. Crosby, 545 U.S. 524, 528
(2005). Pursuant to Rule 60(b)(2), a “court may relieve a party or its legal representative from a final
judgment, order, or proceeding” “for [] newly discovered evidence that, with reasonable diligence,
could not have been discovered in time to move for a new trial under Rule 59(b).” Pursuant to Rule
60(b)(3), a “court may relieve a party or its legal representative from a final judgment, order, or
proceeding” “for fraud (whether previously called intrinsic or extrinsic), misrepresentation, or
misconduct by an opposing party.” Finally,- pursuant to the catch-all provision of Rule 60(b)(6), a
“court may relieve a party or its legal representative from a final judgment, order, or proceeding”
“for any other reason that justifies relief.” A court may grant a Rule 60(b) motion only in
extraordinary circumstances,1 and in such a motion it is not appropriate to reargue issues that the

lMoolenaar v. Gov’t of Virgin Islands, 822 F.2d 1342,1346 (3d Cir. 1987).

3

Case l:13-cr-00097-LPS Document 117 Filed 05/07/20 Page 4 of 6 PagelD #: 826

court has already considered and decided. See Brambles USA Inc. v. Blocker, 735 F. Supp. 1239,1240
(D. Del. 1990).
Additionally, when, as here, a district court is presented with a Rule 60(b) motion for
reconsideration after it has denied a movant’s § 2255 motion, the Court must first determine if the
motion constitutes a second or successive application under the Antiterrorism and Effective Death
Penalty Act (“AEDPA”). As articulated by the Third Circuit,
in those instances in which the factual predicate of a petitioner’s Ride
60(b) motion attacks the manner in which the earlier habeas judgment
was procured and not the underlying conviction, the Rule 60(b) motion
may be adjudicated on the merits. However, when the Rule 60(b)
motion seeks to collaterally attack the petitioner’s underlying
conviction, the motion should be treated as a successive habeas

petition.
Pridgen v. Shannon, 380 F.3d 721, 727 (3d Cir. 2004). Under AEDPA, a prisoner cannot file a second
or successive habeas application without first obtaining approval from the Court of Appeals; absent
such authorization, a district court cannot consider the merits of a subsequent application. See 28
U.S.C. §§ 2244(a) and 2255(h); Rule 9 of the Rules Governing Section 2255 Cases in the United
States District Court, 28 U.S.C. foil. § 2255; Robinson v. Johnson, 313 F.3d 128,139-40 (3d Cir. 2002).
IV.

DISCUSSION
A. Rule 60(b) Motion for Reconsideration
In his Motion for Reconsideration, Movant asserts that the Court should vacate his

conviction because the Government did not provide him with Exhibit 4 during his criminal

'

proceeding. More specifically, Movant contends that Exhibit 4 constitutes newly-discovered
evidence for the purposes of Rule 60(b)(2), and that the Exhibit supports the claims for relief he
presented in his original § 2255 Motion. (D.I. 107 at 6-8) Relatedly, Movant contends that the
Court should also grant relief under Rule 60(b)(3), because the Government committed “widespread

4

Case l:13-cr-00097-LPS Document 117 Filed 05/07/20 Page 5 of 6 PagelD #: 827

and deliberate” fraud during his criminal proceedings in order to “substantially interfere with his
ability to “fully and fairly articulate an entrapment defense and proceed to trial.” (D.I. 107 at 10)
The arguments in Movant’s Rule 60(b) Motion attack his underlying conviction and not the
manner in which the Court’s denial of his § 2255 Motion was procured. Consequently, the Court
must treat the Motion as a second or successive § 2255 Motion. It appears that Movant presented
these same arguments to the Third Circuit in his September 2018 Application for
Second/Successive Motion Authorization, and the Third Circuit denied that request. There is no
indication that Movant has obtained authorization to file a second or successive § 2255 motion from
the Third Circuit since its 2018 denial. Therefore, the Court will dismiss the instant Rule 60(b)
Motion for lack of jurisdiction.2 See Rule 9, 28 U.S.C. foil. § 2254; 28 U.S.C. § 2244(b)(1).
B. Motion for a Bill of Particulars
In his Motion for a Bill of Particulars, Movant asks the Court to order the Government to
itemize the evidence it provided to defense counsel during discovery in his underlying criminal
proceeding. Movant asserts that this information would demonstrate that the Government did not
provide him with Exhibit 4 during his criminal proceeding, and also that the information supports
the arguments in his Rule 60(b) motion.
Having already determined that it lacks jurisdiction over Movant’s Rule 60(b) Motion, the
Court will dismiss as moot the instant Motion for a Bill of Particulars. Alternatively, even if the
Motion were not moot, the Court would deny the Motion as factually baseless because the

2The Court concludes that it would not be in the interest of justice to transfer the instant Motion to
the Court of Appeals for the Third Circuit, because nothing in the Motion comes close to satisfying
the substantive requirements for a second or successive petition under 28 U.S.C. § 2244(b)(2).

5

Case l:13-cr-00097-LPS Document 117 Filed 05/07/20 Page 6 of 6 PagelD #: 828

Government provided the information contained in Exhibit 4 to Movant during the discovery phase
of his criminal proceeding. (See D.I. 105 at 2-3)
C. Motion for Status Report or Hearing
In October 2019, Movant filed a Motion for a Status Report and/or Hearing for his Rule
60(b) Motion. (D.I. Ill) Having decided that it must deny the Rule 60(b) Motion for lack of
jurisdiction, the Court will dismiss as moot the Motion for Status Report and/or Hearing.
V.

CONCLUSION
For the aforementioned reasons, the Court concludes that the instant Rule 60(b) Motion

constitutes an unauthorized second or successive § 2255 Motion under 28 U.S.C. § 2244 and
§ 2255(h). Therefore, the Court will dismiss the Rule 60(b) Motion for lack of jurisdiction.
Relatedly, the Court will also decline to issue a certificate of appealability, because Movant has failed
to make a “substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see
United States v. Eyer, 113 F.3d 470 (3d Cir. 1997); 3d Cir. LAR 22.2 (2011). Finally, the Court will
dismiss as moot Movant’s Motions for a Bill of Particulars and a Status Report/Hearing. A separate
Order will be entered.

May 7, 2020
Wilmington, Delaware

'
.

HONORABLE LEONARD P. STARK
UNITED STATES DISTRICT JUDGE

6

Case l:13-cr-00097-LPS Document 118 Filed 05/07/20 Page 1 of 1 PagelD #: 829

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
KIRK A. SIMMONS,
Movant/Defendant,
Civ. Act. No. 15-549-LPS
Cr. Act. No. 13-97-LPS

v.

UNITED STATES OF AMERICA,
Respondent/Plaintiff.

ORDER
At Wilmington this 7th day of May, 2020, for the reasons set forth in the Memorandum
issued this date;
IT IS HEREBY ORDERED that:
1. Movant’s Motion for Reconsideration Pursuant to Federal Rule of Civil Procedure 60(b)
is DENIED for lack of jurisdiction because it constitutes an unauthorized second or successive
§ 2255 motion. (D.I. 107)
2. Movant’s Motion for a Bill of Particulars is DISMISSED as moot. (D.I. 104)
r

3. Movant’s Motion for Status Report/Hearing is DISMISSED as moot. (D.I. Ill)
I

4. The Court declines to issue a certificate of appealability.

_P»

UNITED STATES DISTRICT JUDGE

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 20-2072

UNITED STATES OF AMERICA
v.
KIRK A. SIMMONS,
Appellant

D.C. No. l-13-cr-00097-001

SUR PETITION FOR REHEARING

Before: SMITH, ChiefJudge, McKEE, AMBRO, C HAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIB AS,
PORTER, MATEY, PHIPPS and SCTS1CA,*Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ L. Felipe Restrepo
Circuit Judge
Dated: December 23, 2020
Lmr/cc: Graham L. Robinson
Kirk A. Simmons

* Judge Scirica’s vote is limited to panel rehearing only.
APPENDIX C

Rule 60. Relief from a Judgment or Order
(a) Corrections Based on Clerical Mistakes; Oversights and Omissions. The court may
correct a clerical mistake or a mistake arising from oversight or omission whenever one is found
in a judgment, order, or other part of the record. The court may do so on motion or on its own,
with or without notice. But after an appeal has been docketed in the appellate court and while it is
pending, such a mistake may be corrected only with the appellate court’s leave.
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding. On motion and
just terms, the court may relieve a party or its legal representative from a final judgment, order, or
proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not have been
discovered in time to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic), misrepresentation, or
misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; it is based on an earlier
judgment that has been reversed or vacated; or applying it prospectively is no longer equitable; or
(6) any other reason that justifies relief.
(c) Timing and Effect of the Motion.
(1) Timing. A motion under Rule 60(b) must be made within a reasonable time—and for
reasons (1), (2), and (3) no more than a year after the entry of the judgment or order or the date
of the proceeding.
(2) Effect on Finality. The motion does not affect the judgment’s finality or suspend its
operation.
(d) Other Powers to Grant Relief. This rule does not limit a court’s power to:
(1) entertain an independent action to relieve a party from a judgment, order, or
proceeding;
(2) grant relief under 28 U.S.C. § 1655 to a defendant who was not personally notified of
the action; or
1

USCSRULE

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX D

(3) set aside a judgment for fraud on the court.
(e) Bills and Writs Abolished. The following are abolished: bills of review, bills in the
nature of bills of review, and writs of coram nobis, coram vobis, and audita querela.

USCSRULE

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

07400015

§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the right
to be released upon the ground that the sentence was imposed in violation of the Constitution or laws of
the United States, or that the court was without jurisdiction to impose such sentence, or that the sentence
was in excess of the maximum authorized by law, or is otherwise subject to collateral attack, may move
the court which imposed the sentence to vacate, set aside or correct the sentence.
(b) Unless the motion and the files and records of the case conclusively show that the prisoner is
entitled to no relief, the court shall cause notice thereof to be served upon the United States attorney,
grant a prompt hearing thereon, determine the issues and make findings of fact and conclusions of law
with respect thereto. If the court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack, or that there has
been such a denial or infringement of the constitutional rights of the prisoner as to render the judgment
vulnerable to collateral attack, the court shall vacate and set the judgment aside and shall discharge the
prisoner or resentence him or grant a new trial or correct the sentence as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the production of the prisoner
at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the motion as from the
final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section, shall not be entertained if it appears that the applicant has failed
to apply for relief, by motion, to the court which sentenced him, or that such court has denied him relief,
unless it also appears that the remedy by motion is inadequate or ineffective to test the legality of his
detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The limitation period shall
run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental action in
violation of the Constitution or laws of the United States is removed, if the movant was prevented from
making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme Court and made retroactively applicable to cases on
collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have been
discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act [21 USCS § 848], in all
proceedings brought under this section, and any subsequent proceedings on review, the court may

1

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX E
i*.

7400015

appoint counsel, except as provided by a rule promulgated by the Supreme Court pursuant to statutory
authority. Appointment of counsel under this section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 [28 USCS § 2244]
by a panel of the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and convincing evidence that no reasonable factfinder would
have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.

USCS

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

07^00015

§ 2244. Finality of determination
(a) No circuit or district judge shall be required to entertain an application for a writ of habeas corpus
to inquire into the detention of a person pursuant to a judgment of a court of the United States if it
appears that the legality of such detention has been determined by a judge or court of the United States
on a prior application for a writ of habeas corpus, except as provided in section 2255 [28 USCS § 2255].

(b) (1) A claim presented in a second or successive habeas corpus application under section 2254
[28 USCS § 2254] that was presented in a prior application shall be dismissed.
(2) A claim presented in a second or successive habeas corpus application under section 2254
[28 USCS § 2254] that was not presented in a prior application shall be dismissed unless—
(A) the applicant shows that the claim relies on a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court, that was previously unavailable; or

(B) (i) the factual predicate for the claim could not have been discovered previously
through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the evidence
whole,
would
be
sufficient
to establish by clear and convincing evidence that, but for constitutional
as a
reasonable
factfinder
would
have found the applicant guilty of the underlying offense.
error, no

(3) (A) Before a second or successive application permitted by this section is filed in the district
court, the applicant shall move in the appropriate court of appeals for an order authorizing the district
court to consider the application.
(B) A motion in the court of appeals for an order authorizing the district court to consider
a second or successive application shall be determined by a three-judge panel of the court of appeals.
(C) The court of appeals may authorize the filing of a second or successive application
only if it determines that the application makes a prima facie showing that the application satisfies the
requirements of this subsection.
(D) The court of appeals shall grant or deny the authorization to file a second or
successive application not later than 30 days after the filing of the motion.
(E) The grant or denial of an authorization by a court of appeals to file a second or
successive application shall not be appealable and shall not be the subject of a petition for rehearing or
for a writ of certiorari.

1

USCS

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

APPENDIX F

(4) A district court shall dismiss any claim presented in a second or successive application that
the court of appeals has authorized to be filed unless the applicant shows that the claim satisfies the
requirements of this section.
(c) In a habeas corpus proceeding brought in behalf of a person in custody pursuant to the judgment
of a State court, a prior judgment of the Supreme Court of the United States on an appeal or review by a
writ of certiorari at the instance of the prisoner of the decision of such State court, shall be conclusive as
to all issues of fact or law with respect to an asserted denial of a Federal right which constitutes ground
for discharge in a habeas corpus proceeding, actually adjudicated by the Supreme Court therein, unless
the applicant for the writ of habeas corpus shall plead and the court shall find the existence of a material
and controlling fact which did not appear in the record of the proceeding in the Supreme Court and the
court shall further find that the applicant for the writ of habeas corpus could not have caused such fact to
appear in such record by the exercise of reasonable diligence.

(d) (1) A 1-year period of limitation shall apply to an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court. The limitation period shall run from the
latest of—
(A) the date on which the judgment became final by the conclusion of direct review or
the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was prevented from
filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could have
been discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction or other collateral
review with respect to the pertinent judgment or claim is pending shall not be counted toward any period
of limitation under this subsection.

uses

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

■J

7400C15

Rule 11.

Pleas

(a) Entering a Plea.
(1) In general. A defendant may plead not guilty, guilty, or (with the court's consent) nolo
contendere.
(2) Conditional Plea. With the consent of the court and the government, a defendant may
enter a conditional plea of guilty or nolo contendere, reserving in writing the right to have an
appellate court review an adverse determination of a specified pretrial motion. A defendant
who prevails on appeal may then withdraw the plea.
(3) Nolo Contendere Plea. Before accepting a plea of nolo contendere, the court must
consider the parties' views and the public interest in the effective administration ofjustice.
(4) Failure to Enter a Plea. If a defendant refuses to enter a plea or if a defendant
organization fails to appear, the court must enter a plea of not guilty.
(b) Considering and Accepting a Guilty or Nolo Contendere Plea.
(1) Advising and Questioning the Defendant. Before the court accepts a plea of guilty or nolo
contendere, the defendant may be placed under oath, and the court must address the defendant
personally in open court. During this address, the court must inform the defendant of, and
determine that the defendant understands, the following:
(A) the government's right, in a prosecution for perjury or false statement, to use against
the defendant any statement that the defendant gives under oath;
(B) the right to plead not guilty, or having already so pleaded, to persist in that plea;
(C) the right to a jury trial;
(D) the right to be represented by counsel-and if necessary have the court appoint
counsel-at trial and at every other stage of the proceeding;
(E) the right at trial to confront and cross-examine adverse witnesses, to be protected
from compelled self-incrimination, to testify and present evidence, and to compel the
attendance of witnesses;
(F) the defendant's waiver of these trial rights if the court accepts a plea of guilty or nolo
contendere;
(G) the nature of each charge to which the defendant is pleading;
(H) any maximum possible penalty, including imprisonment, fine, and term of supervised
release;
(I) any mandatory minimum penalty;
(J) any applicable forfeiture;
(K) the court's authority to order restitution;
(L) the court's obligation to impose a special assessment;
(M) in determining a sentence, the court's obligation to calculate the applicable
sentencing-guideline range and to consider that range, possible departures under the
1

USCSRULE

©2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement

APPENDIX G

07400015

Sentencing Guidelines, and other sentencing factors under 18 U.S.C. § 3553(a); and
(N) the terms of any plea-agreement provision waiving the right to appeal or to
collaterally attack the sentence; and
(O) that, if convicted, a defendant who is not a United States citizen may be removed from
the United States, denied citizenship, and denied admission to the United States in the
future.
(2) Ensuring That a Plea Is Voluntary. Before accepting a plea of guilty or nolo contendere,
the court must address the defendant personally in open court and determine that the plea is
voluntary and did not result from force, threats, or promises (other than promises in a plea
agreement).
(3) Determining the Factual Basis for a Plea. Before entering judgment on a guilty plea, the
court must determine that there is a factual basis for the plea.
(c) Plea Agreement Procedure.
(1) In General. An attorney for the government and the defendant's attorney, or the defendant
when proceeding pro se, may discuss and reach a plea agreement. The court must not
participate in these discussions. If the defendant pleads guilty or nolo contendere to either a
charged offense or a lesser or related offense, the plea agreement may specify that an attorney
for the government will:
(A) not bring, or will move to dismiss, other charges;
(B) recommend, or agree not to oppose the defendant's request, that a particular sentence
or sentencing range is appropriate or that a particular provision of the Sentencing
Guidelines, or policy statement, or sentencing factor does or does not apply (such a
recommendation or request does not bind the court); or
(C) agree that a specific sentence or sentencing range is the appropriate disposition of the
case, or that a particular provision of the Sentencing Guidelines, or policy statement, or
sentencing factor does or does not apply (such a recommendation or request binds the
court once the court accepts the plea agreement).
(2) Disclosing a Plea Agreement. The parties must disclose the plea agreement in open court
when the plea is offered, unless the court for good cause allows the parties to disclose the plea
agreement in camera.
(3) Judicial Consideration of a Plea Agreement.
(A) To the extent the plea agreement is of the type specified in Rule 11(c)(1)(A) or (C),
the court may accept the agreement, reject it, or defer a decision until the court has
reviewed the presentence report.
(B) To the extent the plea agreement is of the type specified in Rule 11(c)(1)(B), the court
must advise the defendant that the defendant has no right to withdraw the plea if the court
does not follow the recommendation or request.
(4) Accepting a Plea Agreement. If the court accepts the plea agreement, it must inform the
USCSRULE

2

© 2015 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement

07400015

defendant that to the extent the plea agreement is of the type specified in Rule 11(c)(1)(A) or
(C), the agreed disposition will be included in the judgment.
(5) Rejecting a Plea Agreement. If the court rejects a plea agreement containing provisions of
the type specified in Rule 11(c)(1)(A) or (C), the court must do the following on the record
and in open court (or, for good cause, in camera):
(A) inform the parties that the court rejects the plea agreement;
(B) advise the defendant personally that the court is not required to follow the plea
agreement and give the defendant an opportunity to withdraw the plea; and
(C) advise the defendant personally that if the plea is not withdrawn, the court may
dispose of the case less favorably toward the defendant than the plea agreement
contemplated.
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may withdraw a plea of
guilty or nolo contendere:
(1) before the court accepts the plea, for any reason or no reason; or
(2) after the court accepts the plea, but before it imposes sentence if:
(A) the court rejects a plea agreement under Rule 11 (c)(5); or
(B) the defendant can show a fair and just reason for requesting the withdrawal.
(e) Finality of a Guilty or Nolo Contendere Plea. After the court imposes sentence, the
defendant may not withdraw a plea of guilty or nolo contendere, and the plea may be set aside
only on direct appeal or collateral attack.
(f) Admissibility or Inadmissibility of a Plea, Plea Discussions, and Related Statements.
The admissibility or inadmissibility of a plea, a plea discussion, and any related statement is
governed by Federal Rule of Evidence 410.
(g) Recording the Proceedings. The proceedings during which the defendant enters a plea must
be recorded by a court reporter or by a suitable recording device. If there is a guilty plea or a nolo
contendere plea, the record must include the inquiries and advice to the defendant required under
Rule 11(b) and (c).
(h) Harmless Error. A variance from the requirements of this rule is harmless error if it does
not affect substantial rights.

USCSRULE

3

©2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

07400015

No.

IN THE
SUPREME COURT OF THE UNITED STATES

KIRK A. SIMMONS

— PETITIONER

(Your Name)
VS.

UNITED STATES OF AMERICA

— RESPONDENT(S)

PROOF OF SERVICE
Kirk A. Simmons
_________________ , do swear or declare that on this date,
I,
f-ehruary l (g
, 20ZJ_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Soliciter General °f ■ the
Department of Justice, Room 5616, 950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

I C»

,202=L

8/iJ" rviA»W fit tlO^L\
(Signature)

